           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



  PERFORMANCE INDICATOR AUDIT:
     CONTINUING ELIGIBILITY


  October 2005    A-15-05-15115




 AUDIT REPORT
                                     Mission

We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                    Authority

The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                      Vision

By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                     SOCIAL SECURITY

MEMORANDUM

Date:   October 4, 2005                                                         Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Performance Indicator Audit: Continuing Eligibility (A-15-05-15115)



        We contracted with PricewaterhouseCoopers, LLP (PwC) to evaluate 16 of the Social
        Security Administration’s performance indicators established to comply with the
        Government Performance and Results Act. The attached final report presents the
        results of two of the performance indicators PwC reviewed. For each performance
        indicator included in this audit, PwC’s objectives were to:

           •   Assess the effectiveness of internal controls and test critical controls over the
               data generation, calculation, and reporting processes for the specific
               performance indicator.
           •   Assess the overall reliability of the performance indicator’s computer processed
               data. Data are reliable when they are complete, accurate, consistent and are not
               subject to inappropriate alteration.
           •   Test the accuracy of results presented and disclosed in the Fiscal Year 2004
               Performance and Accountability Report.
           •   Assess if the performance indicator provides a meaningful measurement of the
               program it measures and the achievement of its stated objective.

        This report contains the results of the audit for the following indicators:

           •   Supplemental Security Income nondisability redeterminations.
           •   Periodic continuing disability reviews processed.
Page 2 – The Commissioner


Please provide within 60 days a corrective action plan that addresses each
recommendation. If you wish to discuss the final report, please call me or have your
staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
(410) 965-9700.




                                               S
                                               Patrick P. O’Carroll, Jr.

Attachment
MEMORANDUM

Date:     August 17, 2005

To:       Inspector General

From:     PricewaterhouseCoopers, LLP

Subject: Performance Indicator Audit: Continuing Eligibility (A-15-05-15115)



OBJECTIVE
The Government Performance and Results Act (GPRA)1 of 1993 requires the Social
Security Administration (SSA) to develop performance indicators that assess the
relevant service levels and outcomes of each program activity.2 GPRA also calls for a
description of the means employed to verify and validate the measured values used to
report on program performance.3

Our audit was conducted in accordance with generally accepted government auditing
standards for performance audits. For the performance indicators included in this audit,
our objectives were to:

          1. Assess the effectiveness of internal controls and test critical controls over the
             data generation, calculation, and reporting processes for the specific
             performance indicator.

          2. Assess the overall reliability of the performance indicator’s computer
             processed data. Data are reliable when they are complete, accurate,
             consistent and are not subject to inappropriate alteration.4

          3. Test the accuracy of results presented and disclosed in the
             Fiscal Year (FY) 2004 Performance and Accountability Report (PAR).

          4. Assess if the performance indicator provides a meaningful measurement of
             the program it measures and the achievement of its stated objective.

1
 Public Law No. (Pub. L. No.) 103-62, 107 Stat. 285 (codified as amended in scattered sections of
5 United States Code (U.S.C.), 31 U.S.C. and 39 U.S.C.).
2
    31 U.S.C. § 1115(a)(4).
3
    31 U.S.C. § 1115(a)(6).
4
    GAO-03-273G Assessing Reliability of Computer Processed Data, October 2002, p. 3.


Performance Indicator Audit: Continuing Eligibility (A-15-05-15115)                                 1
BACKGROUND
We audited the following performance indicators as stated in the SSA FY 2004 PAR:

         Performance                                            FY 2004 Reported
             Indicator                      FY 2004 Goal             Results
    Supplemental Security
    Income (SSI) Non-
                                               2,210,000              2,278,566
    Disability
    Redeterminations (RZ)
    Periodic Continuing
    Disability Reviews                         1,537,000              1,604,680
    (CDR) Processed

SSA administers two disability programs: the Disability Insurance (DI) program,
authorized by Title II of the Social Security Act,5 and the SSI program, authorized by
Title XVI of the Social Security Act. 6 The DI program provides income for eligible
workers who have qualifying disabilities and for eligible members of their families before
they reach retirement age.7 The SSI Program is a needs-based program that provides
or supplements the income of aged, blind, and/or disabled individuals with limited
income and resources.8 SSA periodically performs reassessments of SSI beneficiaries’
nonmedical factors (SSI Non-Disability Redeterminations) as well as reassessments of
DI and SSI beneficiaries’ disability factors (Periodic CDRs) to determine ongoing benefit
eligibility.

SSI RZs are post-eligibility reviews of SSI nonmedical factors, such as income,
resources and living arrangements. This information is used to determine beneficiaries’
financial eligibility for continued payment. RZs are scheduled based on the likelihood of
changes in circumstances that may affect the payment amount. Unscheduled RZs are
completed on an “as needed” basis and are triggered when SSA learns of certain
changes in circumstances that could affect the continuing SSI payment amount.

SSA completes periodic DI and SSI CDRs to determine if a disabled individual
continues to be medically eligible to receive benefits. Periodic CDRs are required at a
minimum of every 3 years9 unless SSA has determined the disability was classified as


5
    Social Security Act, §§ 201-234, 42 U.S.C. §§ 401-434.
6
    Social Security Act, §§ 1601-1637, 42 U.S.C. 1381-1383f.
7
    http://www.ssa.gov/OP_Home/ssact/title02/0200.htm.
8
    http://www.ssa.gov/OP_Home/ssact/title16b/1601.htm.
9
    Social Security Act, § 221(i), 42 U.S.C. § 421(i).




Performance Indicator Audit: Continuing Eligibility (A-15-05-15115)                       2
permanent, or the beneficiary has enrolled in the Ticket to Work program.10 Periodic
CDRs are conducted by questionnaire (mailer) or by a medical re-examination of the
beneficiaries’ disability.

RESULTS OF REVIEW
We found that SSA does not have adequate internal controls over the processes used
to secure and report the performance data used in the performance indicator “SSI Non-
Disability Redeterminations.” Specifically, there were a number of weaknesses found in
the configuration of the Title XVI Datawarehouse.11 As a result, we were unable to
conclude that the performance data was reliable. For the indicator “Periodic Continuing
Disability Reviews (CDR) Processed,” we were able to recalculate the indicator using
summary data, but we could not verify the accuracy of the summary data. As a result,
PricewaterhouseCoopers, LLP (PwC) was unable to validate the accuracy of the
reported indicator results.

We did not identify any significant exceptions related to the accuracy of presentation or
disclosure of the information related to these indicators contained in the PAR, or to the
meaningfulness of these indicators.

SSI Non-Disability Redeterminations

Indicator Background

SSI Nondisability RZs are selected based on the date of the beneficiaries’ last RZ and
the categorization of beneficiaries into high, middle or low error profiles.12 The selected
beneficiaries are tracked in the Post-Entitlement Operational Data Store (PEODS). The
RZ data is updated in the Supplemental Security Record (SSR), which is the master
record for SSI beneficiaries.

RZs are completed at the field offices (FO) and the Wilkes-Barre Data Operations
Center (WBDOC). Claims representatives (CR) at the FO perform high-error profile
RZs through face-to-face or telephone interviews. SSA requests that the beneficiaries
bring financial documentation to the interviews, such as rent receipts or bank records.
During the interview, the CR inputs any changes to the beneficiaries’ nonmedical factors
via the Modernized Supplemental Security Income Claims System (MSSICS). MSSICS
updates the SSR with changes to the beneficiaries’ nonmedical factors. The SSR
provides data to PEODS to update the status of the RZ once it is completed.



10
     Ticket to Work and Work Incentives Improvement Act of 1999, Pub. L. No. 106-170.
11
     The Tile XVI Datawarehouse is an Oracle database running on a UNIX server.
12
     Program Operations Manual System: OS 03513.001 Redeterminations – General.


Performance Indicator Audit: Continuing Eligibility (A-15-05-15115)                      3
Middle-error and low-error profile RZs are reviewed by records processing clerks at the
WBDOC. Beneficiaries are mailed forms to complete and return to the WBDOC. The
returned forms are manually reviewed for completeness at the WBDOC. During the
mailer reviews, the records processing clerk inputs changes. If “no change” is indicated
on the form, a completion indicator is posted to the SSR. The SSR provides data to
PEODS to update the status of the RZ once it is completed.

On a weekly basis, PEODS transfers the composite high, middle and low RZ data to the
Title XVI Datawarehouse. Once a month, the Division of Cost Analysis reviews the RZ
data maintained in the Title XVI Datawarehouse and provides the RZ information to the
Office of Strategic Management. The year-to-date total of the completed RZs is
recorded in the PAR. Refer to the formula below:


                                                      Total Completed RZs for the period
      Total SSI Non-Disability RZs              =     of October 1, 2003 to
        Processed for FY 2004
                                                      September 24, 2004


Findings

Internal Controls and Data Reliability

Our review of the Title XVI Datawarehouse UNIX system and Oracle database identified
seven security and compliance exceptions. This review was conducted against the
SSA developed UNIX Risk Model configuration standard (which establishes baseline
configuration requirements for all production SSA UNIX servers), the SSA Security
Handbook, National Institute of Standards and Technology (NIST) guidelines, and the
Defense Information Systems Agency (DISA) Security Technical Implementation
Guides (STIG). We identified two exceptions to the requirements of the SSA UNIX Risk
Model and three exceptions to the existing Government guidelines from NIST and the
DISA UNIX STIGs.13 We identified one exception to the requirements of the SSA
Security Handbook. During our review of the Oracle database, we were informed by
SSA management that SSA has not documented a configuration standard (risk model)
for the Oracle database environment. The lack of a documented configuration standard
increases the risk that the database environment will not be consistently configured to

13
     During the review, the following NIST and DISA guidelines were used:

      •   NIST Interagency Reports 5153 Section 3.2.2 #11: Government standards state, “Each resource
          delivered with the system shall have the most restrictive access rights possible to permit the
          intended use of that resource.”
      •   DISA UNIX Security Technical Implementation Guide, Version 4R4, Release 15 January 2005
          Section 3.8.1 G201.
      •   NIST Special Publications 800-18 Guide for Developing: Security Plans for Information
          Technology Systems, Section 6.MA.2.




Performance Indicator Audit: Continuing Eligibility (A-15-05-15115)                                   4
meet minimum security requirements established in the SSA Security Handbook.
Additionally, SSA cannot ensure that the steps required to restrict access, prevent data
loss, and detect unauthorized activity are consistently completed by system
administrators when installing, configuring, upgrading, or maintaining a database.

The Government Accountability Office’s (GAO) guide, Assessing the Reliability of
Computer-Processed Data, states that for data to be considered reliable it must not be
subject to inappropriate alteration. As a result of these security issues, the data used to
calculate this performance indicator could not be considered reliable as the environment
did not provide an appropriate level of control to prevent inappropriate alteration of the
data.

Periodic Continuing Disability Reviews Processed

Indicator Background

Periodic CDRs are conducted through full medical reviews or beneficiary completed
questionnaires (mailers). The type of CDR to be completed is determined by the
beneficiaries’ probability of medical improvement. Beneficiaries with a high probability
of medical improvement receive a full medical review CDR.

A CDR begins when an FO receives an alert to review a beneficiary’s case folder which
contains background and medical information on the beneficiary to determine if a full
medical CDR should be performed. The FO is able to determine the need for a full
medical CDR, based on SSA policy. If unable to readily make that decision, it is
transferred to the State Disability Determination Services (DDS). The folders identified
for full medical CDRs are also transferred to DDS for medical adjudication. The DDS
disability adjudicator reviews the folder to determine if a full medical CDR should be
performed. If a full medical CDR is not performed, the beneficiary’s record is updated in
the Disability Control File (DCF) and the case is not included in the performance
indicator count.

When a full medical CDR is completed by the DDS the determination of “continuance,”
“cessation,” or “no decision” is input into the National Disability Determination Services
System (NDDSS). NDDSS transfers this data to the Disability Operational Data Store
(DIODS). DIODS produces the State Agency Operations Report (SAOR) on a monthly
basis and at the end of the year. The year-to-date total of the completed full medical
CDRs is reported on the SAOR report. Refer to the following formula:


                                                       Total recorded medical CDRs less
 Total full medical CDRs processed               =
                                                       work issue CDRs 14

14
  A work issue CDR is an unscheduled full medical review that is performed to evaluate the beneficiary’s
medical eligibility as a result of earnings being posted to the Master Earnings File against a beneficiary’s
record. Since these are not periodic CDRs, they are not included in the count.


Performance Indicator Audit: Continuing Eligibility (A-15-05-15115)                                       5
CDR mailers are performed for beneficiaries that have a low probability of medical
improvement. These beneficiaries are identified through profiling. Profiling is the
process in which the Office of Disability Determinations (ODD) ranks all Title II and Title
XVI recipients based on the probability of cessation. The mailer forms request
information about the beneficiaries’ medical improvement, recent education or training,
and recent attempts to work or return to work. CDR mailers are tracked within the
Office of Disability and Income Security Programs.

Beneficiaries return completed CDR mailers to the WBDOC. The WBDOC reviews the
mailers for completeness and creates a data file to capture relevant information. The
data file is sent to the Office of Continuing Disability Reviews Support (OCDRS) to
process using the beneficiary’s mailer responses. The possible outcomes for the mailer
CDRs are:

   •   Deferred for a full medical review;
   •   Full medical review;
   •   Administrative closure; or
   •   Processing Center review.

ODD updates the DCF to reflect the results of the OCDRS processing and completion
of the CDR mailers. Only completed CDR mailers that have been deferred for a full
medical review are included in the performance measure count.


                                                  Total completed CDR mailers that
Total completed CDR mailers                 =     have been deferred for Full Medical
                                                  Review


The CDR Mailer Deferrals report produces the total deferred CDR mailers completed on
a monthly basis. The year-to-date total of the completed full medical CDRs on the
report is combined with the year-to-date total of the deferred CDR mailers and is
recorded in the PAR.


                                                  Total full medical CDRs processed
                                                  for the period of October 1, 2003 to
Total fiscal year-to-date CDRs              =
                                                  September 24, 2004 plus the total
processed
                                                  completed CDR mailers for the
                                                  period of October 1, 2003 to
                                                  September 24, 2004




Performance Indicator Audit: Continuing Eligibility (A-15-05-15115)                       6
Findings

We were able to recalculate the indicator using summary data from DIODS, but we
could not verify the accuracy of the summary data. The DIODS data used to classify
the full medical reviews as complete was not archived and maintained. SSA
management stated that the detailed data was not maintained due to limited data
storage space. As a result, PwC was unable to validate the accuracy of the reported
indicator results. The Agency brought to our attention that it is considering alternative
means to address this finding, e.g. providing a year-to-date DIODS snapshot. We
acknowledge SSA’s efforts to address this finding; however, as the proposed
alternatives were not in place during the period of our audit, we were unable to verify or
test the accuracy of data provided by these alternatives.

We did not identify any significant exceptions related to the accuracy of presentation or
disclosure of the information related to this indicator contained in the PAR, or to the
meaningfulness of this indicator.

CONCLUSION AND RECOMMENDATIONS

Specific to the performance indicator, “SSI Non-Disability Redeterminations,” we
recommend SSA:

   1. Ensure that the Title XVI Datawarehouse UNIX system is configured to be in
      compliance with the SSA Risk Model and Government guidelines from NIST and
      DISA.
   2. Ensure that the Title XVI Datawarehouse Oracle database is configured to be in
      compliance with the SSA Security Handbook.
   3. Create a risk model for the Oracle database that is in compliance with the SSA
      Security Handbook and Government guidelines.

Specific to the performance indicator, “Periodic CDRs processed,” we recommend SSA:

   4. Maintain the detailed data used to calculate the performance indicator results
      that are reported in the PAR or provide alternate means to ensure that the data is
      auditable.

AGENCY COMMENTS

SSA generally agreed with one recommendation, neither agreed nor disagreed with
another recommendation, and disagreed with two recommendations. Although SSA
stated they could neither agree nor disagree with recommendation 2, SSA discussed
steps taken to address the risk presented by this issue. For recommendation 3, SSA
disagreed and stated that the risk models target operating systems, not databases. For
recommendation 4, SSA disagreed and stated that system capacity and limited




Performance Indicator Audit: Continuing Eligibility (A-15-05-15115)                      7
resources would prevent them from full implementation of this recommendation. The
full text of SSA’s comments can be found in Appendix D.

PWC RESPONSE
In response to the Agency's general comment related to the accuracy of the data used
to calculate the performance indicator results, for the indicator "SSI Non-Disability
Redeterminations," GAO’s guide, Assessing the Reliability of Computer-Processed
Data, states that for data to be considered reliable it must not be subject to
inappropriate alteration. As a result of the security issues addressed in this report, the
data used to calculate this performance indicator could not be considered reliable as the
environment did not provide an appropriate level of control to prevent inappropriate
alteration of the data. For the indicator "Periodic Continuing Disability Reviews
Processed," the DIODS data used to classify the full medical reviews as complete was
not archived and maintained. As a result, PwC was unable to validate the accuracy of
the reported indicator results.

In response to recommendation 1, we believe the approach that SSA has taken to
address the risk presented by this finding is appropriate. For recommendations 2 and 3,
since completion of the field work for this audit, SSA has created an ORACLE standard
configuration risk model that defines SSA's security guidelines for implementation of
ORACLE databases. For recommendation 4, one of the objectives of the GPRA audit is
to ensure the accuracy of results reported in the PAR for each of the indicators under
audit. We are willing to discuss any alternate methods the Agency is considering to
ensure that the indicator results are auditable. However, SSA is responsible for
meeting the requirements of OMB Circular A-123, Management Accountability and
Control, which states, "…documentation for transactions, management controls, and
other significant events must be clear and readily available for examination."15




15
     OMB Circular A-123, Appendix II, Establishing Management Controls, June 21, 1995.


Performance Indicator Audit: Continuing Eligibility (A-15-05-15115)                      8
                                             Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Process Flowcharts

APPENDIX D – Agency Comments




Performance Indicator Audit: Continuing Eligibility (A-15-05-15115)
                                                                      Appendix A
Acronyms
CDR                  Continuing Disability Review
CR                   Claims Representative
DCA                  Division of Cost Analysis
DCF                  Disability Control File
DDS                  Disability Determination Services
DI                   Disability Insurance
DIODS                Disability Operational Datastore
DISA                 Defense Information Systems Agency
FO                   Field Office
FY                   Fiscal Year
GAO                  Government Accountability Office
GPRA                 Government Performance and Results Act
MSSICS               Modernized Supplemental Security Income Claims Systems
NCC                  National Computer Center
NDDSS                National Disability Determination Services System
NIST                 National Institute of Standards and Technology
OCDRS                Office of Continuing Disability Review Support
ODD                  Office of Disability Determinations
OEEAS                Office of Earnings, Enumerations and Administrative Systems
PAR                  Performance and Accountability Report
PC                   Processing Center
PEODS                Post-Entitlement Operational Data Store
Pub. L. No.          Public Law Number
PwC                  PricewaterhouseCoopers, LLP
RZ                   Redetermination
RZ SDO               Redetermination Service Delivery Objective Report
SAOR                 State Agency Operations Report
SSA                  Social Security Administration
SSI                  Supplemental Security Income
SSR                  Supplemental Security Record
STIG                 Security Technical Implementation Guides
U.S.C.               United States Code
WBDOC                Wilkes-Barre Data Operations Center




Performance Indicator Audit: Continuing Eligibility (A-15-05-15115)
                                                                      Appendix B
Scope and Methodology
We updated our understanding of the Social Security Administration’s (SSA)
Government Performance and Results Act (GPRA) processes. This was completed
through research and inquiry of SSA management. We also requested SSA to provide
various documents regarding the specific programs being measured as well as the
specific measurement used to assess the effectiveness and efficiency of the related
program.

Through inquiry, observation, and other substantive testing, including testing of source
documentation, we performed the following:

   •   Reviewed prior SSA, Government Accountability Office, Office of the Inspector
       General and other reports related to SSA’s GPRA performance and related
       information systems.
   •   Met with the appropriate SSA personnel to confirm our understanding of the
       performance indicator.
   •   Flowcharted the process. (See Appendix C).
   •   Tested key controls related to manual or basic computerized processes (e.g.,
       spreadsheets, databases, etc.).
   •   Conducted and evaluated tests of the automated and manual controls within and
       surrounding each of the critical applications to determine whether the tested
       controls were adequate to provide and maintain reliable data to be used when
       measuring the specific indicator.
   •   Identified attributes, rules, and assumptions for each defined data element or
       source document.
   •   Recalculated the metric or algorithm of key performance indicators to ensure
       mathematical accuracy.
   •   For those indicators with results that SSA determined using computerized data,
       we assessed the completeness and accuracy of that data to determine the data's
       reliability as it pertains to the objectives of the audit.

As part of this audit, we documented our understanding, as conveyed to us by Agency
personnel, of the alignment of the Agency’s mission, goals, objectives, processes, and
related performance indicators. We analyzed how these processes interacted with
related processes within SSA and the existing measurement systems. Our
understanding of the Agency’s mission, goals, objectives, and processes were used to
determine if the performance indicators appear to be valid and appropriate given our
understanding of SSA’s mission, goals, objectives and processes.

We followed all performance audit standards in accordance with generally accepted
government auditing standards. In addition to the steps noted previously, we
specifically performed the following to test the indicators included in this report:


Performance Indicator Audit: Continuing Eligibility (A-15-05-15115)                    B-1
SUPPLEMENTAL SECURITY INCOME REDETERMINATIONS

   •   Audited the design and effectiveness of the SSA internal controls and the
       accuracy and completeness of the data related to the following areas:
          9 Completed application control review over the Title XVI Datawarehouse.
          9 Completed reviews for the Title XVI Datawarehouse UNIX system and
             ORACLE database.
   •   Recalculated the Supplemental Security Income redeterminations for the Fiscal
       Year (FY) 2004 and compared it to the number reported in the Performance
       Accountability Report.

PERIODIC CONTINUING DISABILITY REVIEWS PROCESSED

   •   Audited the design and effectiveness of the SSA internal controls and the
       accuracy and completeness of the data related to the following areas:
            9 Observed the Continuing Disability Review (CDR) mailer process at the
              Wilkes-Barre Data Operations Center (WBDOC).
            9 Completed application control review over Disability Operational Datastore
              (DIODS).
   •   Determined the adequacy of the programming logic used by SSA to calculate the
       full medical reviews processed.
   •   Recalculated the Title II and Title XVI CDR mailers processed for FY 2004 and
       compared it to the Title II and Title XVI CDR mailers processed for the year.
   •   Recalculated the Title II and Title XVI CDR full medical reviews summary data for
       FY 2004 and compared it to the State Agency Operations Report as of
       September 24, 2004.




Performance Indicator Audit: Continuing Eligibility (A-15-05-15115)                 B-2
                                                                                                                                           Appendix C

Flowchart of Supplemental Security Income
(SSI) Non-Disability Redeterminations
 S ch ed u led R ed eterm in atio n s

  F ie ld O ffice (F O )
  h a n dle h igh -error                                 R Z d a ta is e nte red in
pro file a n d W B D O C                                        M od e rn ize d
   e xclu sion ca ses                                   S u p p lem en ta l S ecu rity          A
th rou g h fa ce-to -fa ce                                   In co m e C laim s
     or tele p h on e                                     S yste m (M S S IC S ).
        in te rview .




            B




      M ailers

  M a ile r fo rm s a re                                         Yes
   re turn ed to th e
                                          Is th e fo rm
    W B D O C a nd
                                          co m p le te?
 m an u a lly re vie w ed
 for co m p le te n ess.

                                                          No
                                                                                                            T h e m a iler reco rd
                                                                       M aile rs are sca n ne d an d        is so rte d into o ne
                                            W BDOC
                                                                         re view e d th rou g h a n         of five cate g orie s:
                                     e m p lo yee s follo w -
                                                                       e xcep tio n lo g ic pro cess             a u to m ate d
                                     up if an y a dd itio na l
                                                                           th a t co m p a re s th e         co m p le tio n , tw o
                                      ke y in form a tio n is
                                                                       an sw ers o n th e m ailer to         W B D O C a ction s
                                       n ee d e d from th e
                                                                           th e S u p ple m en ta l             a n d tw o F O
                                             m a iler.
                                                                       S e curity R eco rd (S S R ).               a ction s.




                                                                                                            W B D O C a nd F O             C o m p le tion
                                                                                                               fo llo w -up o n               da ta is
                                                                                                            ad d ition a l actio n s        po sted to       A
                                                                                                                 n e ed e d to                  th e
                                                                                                              co m p lete R Z .             M S S IC S .




                                                                                                                      B

U n sch ed u le d R e d e te rm in atio n s


 E ve nts su ch a s the d ea th
 o f an e ligib le spo u se a n d                   F O use form S S A -8 2 03 -                    R Z da ta is
 th e e ffectu atio n of ce rta in                      B K or M S S IC S to                        e n tere d in                      A
     ap p e llate d ecisio n s                           co nd u ct th e R Z .                      M S S IC S .
 trig ge r un sche d u led R Z s.




Performance Indicator Audit: Continuing Eligibility (A-15-05-15115)                                                                                          C-1
Flowchart of Supplemental Security Income
(SSI) Non-Disability Redeterminations (cont.)
                 Supplemental
                Security Income
                 (SSI) Update
                System updates
               SSR with RZ case
                  data daily.


  A

                  SSI Update                             When a
                System updates                       redetermination
               Post-Entitlement                     is processed, the
               Operational Data                      case is updated
                Store (PEODS)                        and considered
               with RZ case data                    “complete” in the
                     daily.                              PE ODS.




               This information is
                                             Office of Earning, Enumerations
               processed daily in
                                               and Administrative Systems
                  the Title XVI
                                                   (OEEAS) checks the
                Datawarehouse
                                              transaction count of the data
                and available to
                                                received from PEODS for
                  users every
                                                      completeness.
                    Monday.




         A report called Redetermination
        Service Delivery Objective Report
          (RZSDO) is run by Division of
           Cost Analysis (DCA) monthly                      DCA reviews the
        which displays the information for                 information along
          the pm weekly or monthly and                     with the Regional
             keeps totals of RZ cases                       Office (RO) and
            available, completed, and                         FO users for
                     pending.                                  accuracy.




             Performance Indicator
              results are shown on
             RZSDO and are sent to
                Office of Strategic
              Management (OSM).




Performance Indicator Audit: Continuing Eligibility (A-15-05-15115)            C-2
2004 Process Flowchart Narrative
Supplemental Security Income (SSI) Non-Disability Redeterminations
     Scheduled Redeterminations
  • Claims representatives at the FOs typically handle high-error profile
     redeterminations through face-to-face or telephone interviews.
  • The updated information is input via on-line entry to the MSSICS.
  • The SSR is updated by overnight batch processing and the information is
     transferred using the SSI Update System to PEODS.
     Mailers
  • WBDOC conducts redeterminations that have low-error profiles using computer
     generated mail-out forms to be completed and returned by the beneficiaries.
  • Forms are manually reviewed for completeness.
  • Incomplete forms are followed up by WBDOC employees.
  • Mailers are scanned and reviewed through an exception logic process that
     compares the answers on the mailer to the SSR.
  • The mailer record is sorted into one of five categories: automated completion,
     two WBDOC actions and two FO actions.
  • WBDOC and FO follow up on additional actions needed to complete RZ.
  • If a complication develops in the case, the case is transferred to the servicing
     FO.
  • If “no change” is indicated, a completion indicator is posted to the SSR.
  • The SSR is updated by overnight batch processing and the information is
     transferred using the SSI Update System to PEODS.
     Unscheduled Redeterminations
  • Events such as the death of an eligible spouse and the effectuation of certain
     appellate decisions trigger unscheduled RZs.
  • FO uses form SSA-8203-BK or MSSICS to conduct the RZ similar to a scheduled
     RZ.
  • The updated information is input via on-line entry to the MSSICS.
  • The SSR is updated by overnight batch processing and the information is
     transferred using the SSI Update System to PEODS.
  • The entered cases, identified by SSNs, are considered receipts in the PEODS.
  • When the processing of a redetermination is done and updated by the FO in
     MSSICS, a completion count is taken.
  • PEODS redetermination data are updated automatically once a week.
  • The information is processed daily in the Title XVI Datawarehouse and available
     to users every Monday.
  • Once a month, the DCA reviews the redetermination data on the RZ SDO Report
     and sends the completion data to the Office of Strategic Management (OSM),
     which is reported at year-end in SSA’s PAR.




Performance Indicator Audit: Continuing Eligibility (A-15-05-15115)             C-3
Flowchart of Periodic Continuing Disability
Reviews (CDR) Processed
         Full Medical Review CDRs

                               Findings are
   Cases forwarded             inputted into                                          Medical CDRs are                          Total CDRs less
                                                          Data transferred
      to Disability           National DDS                                            posted on monthly                          the number of
                                                          from NDDSS to
    Determination                 System                                                State Agency                            recorded cases
                                                             Disability
   Services (DDS)              (NDDSS) to                                             Operations Report                       that are work issue
                                                          Operational Data
    from the FO to           report outcome                                           (SAOR) produced                          CDRs equals the
                                                          Store (DIODS).
   perform medical            “continuance”,                                            from DIODS.                            Periodic Medical
     adjudication.                  and                                                                                        CDRs processed.
                                ”cessation.”


          A              Update of decision and
                                                                                                                              The performance
                        completion date posted to
                                                                                                                                 measure is
                      Supplemental Security Record
                                                                                                                              reported monthly
                        (SSR)/ Master Beneficiary
                                                                                                                                  to OSM.
                            Record (MBR).



        CDR Mailers
                                                                                                  Update of mailer                    B
                                                                                                     data and
                                                                                                   determination
 Mailer forms are                                                                                  result to SSR/
  returned to the                                   Yes                                                MBR.
                               Is the form
   WBDOC and
                               complete?
manually reviewed
for completeness.
                                                                                           The mailer data is processed
                                         No                                                through decision logic at the
                                                                                               Central Office and a
                                                                                                                                       Alerts are
                                WBDOC                                                     determination is made as either
                                                            Mailer goes through a                                                    generated for
                          employees follow-                                                deferred, full medical review,
                                                            scanning process at                                                    cases marked for   A
                          up if any additional                                            Processing Center (PC) review.
                                                                the WBDOC.                                                           a full medical
                           key information is                                                (PC review can make the
                                                                                                                                        review.
                            needed from the                                                 determination to defer, full
                                 mailer.                                                  medical review, or administrative
                                                                                                      closure).



          The data is pulled
          monthly from the
         Office of Continuing                                                          The OCDRS CDR                    PC makes the
                                                    OCDRS CDR
          Disability Review                                                         Tracking file queries the         determination that
                                                   Tracking File is
         Support (OCDRS)                                                             Disability Control File             the case is a
                                                 updated with deferral
         CDR Tracking Files                                                          (DCF) for PC Review                 deferral and
                                                     mailer data.
         using a FOCEXEC                                                                   deferrals.                 updates the DCF.
               program.



                                             The sections of the
            CDR Mailer                        report are totaled
          Deferral Report is                  on an excel sheet                                                                Periodic CDRs
              created.                                                       B                                                    Processed
                                               and reported to
                                                OSM monthly.                                                                  calculation = total
                                                                                                                                medical CDRs
                                                                                                  B
                                                                                                                              processed + CDR
                                                                                                                                mailer cases
                                                                                                                                 recorded as
                                                                                                                                   deferred




Performance Indicator Audit: Continuing Eligibility (A-15-05-15115)                                                                                   C-4
2004 Process Flowchart Narrative
Periodic Continuing Disability Reviews (CDR) Processed
      Full Medical Reviews
   • FOs forward the cases to the State Disability Determination Services (DDS) to
      perform the medical adjudication.
   • Once a determination is made by the DDS, the findings are input into the NDDSS
      to report the outcome, either “continuance,” “cessation,” or “no decision” in the
      event of an administrative closure.
   • The data is transferred from the NDDSS to DIODS.
   • The medical CDRs are posted monthly on a SAOR year-to-date report, which is
      produced from the DIODS.
   • The information, available weekly but reported monthly to the Commissioner’s
      Tracking Report, is used to calculate the performance indicator. The total
      recorded CDRs less the number of recorded cases that are work issue CDRs
      equals the number of reported medical CDRs processed.
      CDR Mailers
   • Once a scannable mailer is received by the WBDOC, there is a preliminary
      screening for completeness.
   • Incomplete forms are followed up by WBDOC employees.
   • The mailer form is both scanned by equipment using optical character
      recognition and physically input/keyed to create a data file.
   • The data file is transmitted to National Computer Center (NCC) at the Central
      Office. NCC formats and names the file that is then passed along to OCDRS.
   • OCDRS processes the data through decision-logic. The decision logic considers
      the beneficiary’s mailer responses together with the profile score signifying high,
      middle, or low likelihood of cessation due to medical improvement. The possible
      outcomes are either deferred, full medical review, administrative closure or
      Processing Center (PC) review.
   • ODD makes the appropriate input to update the DCF to reflect the results of
      decision logic processing.
   • PC can make a determination to defer or full medical review, or administrative
      closure.
   • The OCDRS CDR Tracking file queries the DCF for PC Review deferrals.
   • OCDRS CDR Tracking File is updated with deferral mailer data.
   • The performance indicator data is pulled monthly from the OCDRS CDR
      Tracking Files using a FOCEXEC program.
   • CDR Mailer Deferral Report is created.
   • The sections of the report are totaled on an EXCEL spreadsheet and reported to
      OSM monthly.




Performance Indicator Audit: Continuing Eligibility (A-15-05-15115)                  C-5
                                                                      Appendix D

   Agency Comments




Performance Indicator Audit: Continuing Eligibility (A-15-05-15115)
                                          SOCIAL SECURITY

MEMORANDUM                                                                       34314-24-1351


              August 17, 2005                                                    Refer To: S1J-3

To:           Patrick P. O'Carroll, Jr.
              Inspector General

From:         Larry W. Dye /s/
              Chief of Staff

Subject:      Office of the Inspector General (OIG) Draft Report, "Performance Indicator Audit:
              Continuing Eligibility" (A-15-05-15115)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report’s
           recommendations are attached.

           Please let me know if you have any questions. Staff inquiries may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




           Performance Indicator Audit: Continuing Eligibility (A-15-05-15115)                         D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
"PERFORMANCE INDICATOR AUDIT: CONTINUING ELIGIBLITY" (A-15-05-15115)


Thank you for the opportunity to review and comment on the draft report. We would like to
emphasize that as stated in the report, PricewaterhouseCoopers (PwC) did not identify any
significant exceptions related to the accuracy of presentation or disclosure of the information
related to the performance indicators discussed below that are contained in the Performance and
Accountability Report (PAR). Therefore, SSA considers the audited data used to calculate the
performance indicators as accurate.

Our responses to the specific recommendations are provided below.

Recommendations specific to performance indicator, “SSI Non-Disability Redeterminations”

Recommendation 1

Ensure that Title XVI Datawarehouse UNIX system is configured to be in compliance with the
SSA Risk Model and Government guidelines from National Institute of Standards and
Technology (NIST) and Defense Information Systems Agency (DISA)

Response

We agree with the intent of the recommendation, but not its breadth.

Concerning PwC’s finding that the Title XVI Datawarehouse was non-compliant with settings in
the risk model; we concur and have already taken corrective action.

Although SSA reviews NIST and DISA guidelines when updating each operating system Risk
Model, full adoption of the guidelines would adversely affect the Agency’s ability to conduct its
core business under the current Information Technology (IT) environment. Moreover, the
recommendations made are frequently not applicable to SSA’s systems environment because we
either do not utilize the specific components of the operating system discussed in these
documents or because SSA is using that component in a manner different than that envisioned by
NIST or DISA.

It would be inappropriate for the Agency to state we are in full compliance with these guidelines
for the reasons stated above. However, the Agency has implemented the guidelines where they
are applicable to our processing environment. We believe our configuration management
program affords the Agency the best possible protections while also supporting our core business
processes.




Performance Indicator Audit: Continuing Eligibility (A-15-05-15115)                          D-2
Recommendation 2

Ensure that Title XVI Datawarehouse Oracle database is configured to be in compliance with
SSA Security Handbook.

Response

We cannot agree or disagree with this recommendation as the SSA Security handbook does not
contain database configuration standards. However, SSA’s Office of Systems has established
configuration standards for ORACLE using a risk-based approach that targets known
weaknesses with current ORACLE configurations. As appropriate, the results of routine analysis
of emerging industry best practices and applicable NIST guidance will be included in future
iterations of our configuration guide. As with all our configuration standards, compliance
monitoring continues on an ongoing basis.

Recommendation 3

Create a risk model for the Oracle database that is in compliance with SSA Security Handbook
and Government guidelines.

Response

We disagree. Agency practice for risk models targets operating systems, not databases. Every
operating system permitted on the Agency’s network is required to have a risk model that is
published and updated with an established frequency--no less than annually--in accordance with
Federal sector requirements and guidelines, as adopted by SSA. Oracle databases reside on
operating systems for which risk models exist. As noted in the response to recommendation 2,
ORACLE databases have documented configuration standards that are monitored for
compliance. We will consider formalizing our practice by including it in future policy updates.

Recommendation specific to performance indicator, “Periodic Continuing Disability Reviews
Processed”

Recommendation 4

Maintain the detailed data used to calculate the performance indicator results that are reported in
the Performance and Accountability Report (PAR) or provide alternate means to ensure that the
data is auditable.

Response

We disagree. Although the report indicates system capacity is a compelling factor for not
maintaining data for tracing data integrity, the diversion of already limited resources to support
such activity is another compelling factor. Satisfying this recommendation would require SSA to
preserve and maintain, among other things, data transactions, source code, multiple versions of


Performance Indicator Audit: Continuing Eligibility (A-15-05-15115)                            D-3
software and the operating system in use during the potential audit review period. Staff would
then need to be available to reconstruct all this to support an audit. The magnitude of such an
effort would seriously impede work to implement new information technology-supported
processes that support SSA programs and its clients. We have recommended to OIG and PwC
representatives that they take advantage of real-time auditing, and they agreed to explore such an
option for subsequent fiscal year audits.

Concerning other indicators, OIG and PwC staff expressed they believe some existing indicators
only require the retention of summary data to meet the audit requirement. In these cases
archiving only summary data for each fiscal year would be sufficient to meet PwC/OIG’s needs.
Although this approach won’t address this particular indicator, Office of Systems staff will work
with indicator sponsors, the Office of Strategic Management (OSM) and PwC/OIG staff to
identify those indicators and determine the best storage options for archiving summary data.
This activity addresses the portion of the report that states that SSA is exploring alternatives to
support auditors’ needs.




Performance Indicator Audit: Continuing Eligibility (A-15-05-15115)                            D-4
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
